                                      .cr                                   n




           -
                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                            ACTION MEMORANDUM

TO: AIGI        File Number: A-020 10017                                          Date: 27 MAR 2002

Subject:                                                                                    Page 1 of 1


      A proactive review of agency-wide purchase card statements generated seven questionable purchases in
      the individual statement transactions for the SUBJECT. An interview with SUBJECT'S supervisor
      justified all expenditures.

      This investigation is closed.




 Signature &
    date:
